                                                                      Report No. WR-VS-MOA-0011-2010
                                                                                     September 24, 2010


Memorandum

To:            Rhea S. Suh
               Assistant Secretary for Policy, Management and Budget

From:          Michael P. Colombo
               Regional Manager

Subject:       Verification Review of Three Recommendations from Our July 2008 Evaluation
               Report No. Y-EV-MOA-0003-2008 Titled “Absent Immediate Action the
               Department of the Interior Faces Looming Leasing Crisis”

        The Office of Inspector General has completed a verification review of three
recommendations presented in the subject evaluation report. The objective of the review was to
determine whether the recommendations were implemented as reported to the Office of Financial
Management, Office of Policy, Management and Budget. In a memorandum dated April 16,
2009, the Office of Financial Management reported to the Office of Inspector General that all of
the recommendations in the subject report had been implemented, and the evaluation report was
closed.

Background

        Our July 2008 evaluation report, “Absent Immediate Action the Department of the
Interior Faces Looming Leasing Crisis,” (Report No.Y-EV-MOA-0003-2008) made three
recommendations to the Department of the Interior (DOI) relating to the impact of a new General
Services Administration (GSA) leasing regulation.

        In an October 16, 2008 response to the draft of the subject report, DOI accepted all three
of the recommendations. Based on this response, we considered the three recommendations as
resolved but not implemented. We referred the three unimplemented recommendations for
tracking of implementation in a January 14, 2009 Memorandum to the Assistant Secretary for
Policy, Management and Budget.

Scope and Methodology

      The scope of this review was limited to determining whether DOI took action to
implement the recommendations. To accomplish our objective, we reviewed the supporting




                         Office of Audits, Inspections, and Evaluations | Sacramento, CA
documentation that the Office of Acquisition and Property Management (PAM) officials
provided us relating to each of the three recommendations.

        We did not perform any site visits or conduct any detailed fieldwork to determine
whether the underlying deficiencies that were initially identified have actually been corrected. As
a result, this review was not conducted in accordance with the “Government Auditing Standards”
issued by the Comptroller General of the United States.

Results of Review

       Our current review found that DOI implemented all of the recommendations.

       Recommendation 1: PAM should take a leadership role by clarifying with GSA
       its capacity to meet DOI leasing needs, the impact of leasing regulations on DOI
       operations and communicating GSA’s responses to the bureaus.

       In its October 16, 2008 response to the report, DOI created a corrective action tracking
matrix to implement each recommendation. For Recommendation 1 the corrective action
tracking matrix established the following action items to implement this recommendation.

Action Item A: Poll bureaus for accurate and complete listing of all leases.

         On August 28, 2008, PAM requested all bureaus to submit a complete and accurate
listing of all delegated space leases. All bureaus responded with their lists.

Action Item B: Compile master listing of all DOI direct leases by expiration date, to include
special purpose and categorical authorizations.

       On January 15, 2009, PAM compiled a master list of all DOI direct space leases which
included lease expiration dates and special and categorical authorizations.

Action Item C: Obtain the current status of all delegated space leasing actions submitted to
GSA Central Office.

        On February 11, 2009, PAM received GSA’s comments on DOI’s spreadsheet indicating
its position of granting or denying continued delegation for DOI direct space leases expiring by
December 31, 2010. We also learned that GSA has implemented a website that allows all
bureaus to monitor all leasing actions in real time without data calls.

Action Item D: Provide GSA Central Office with complete listing of all delegated space
leases coming due in the next 18 months and discuss how GSA will fulfill these
requirements.

       In September 2008, PAM staff met with GSA staff to determine GSA’s ability to meet
DOI’s space leasing requirements. In November 2008, PAM forwarded to GSA the list of all
DOI delegated space leases expiring in the next 2 years.


                                                2
Action Item E: Provide detailed information on Lease Authority Indicator of the FRPP
[Federal Real Property Profile] to both asset and space management personnel.

        In August 2008, PAM hosted a joint meeting of the DOI Asset Management Partnership
and the DOI Space Management Partnership. PAM distributed copies of the definitions from the
Federal Management Regulations (FMR) and discussed the definitions of Provider of Choice,
Categorical, Special Purpose and Independent Statutory Authorities. In addition, PAM has
worked with the bureaus to make them aware of the issue, and, as a condition of certifying
bureau data reported into the system, requires bureau space managers to verify and validate
space leasing information reported in the FRPP.

Action Item F: Assist SOL [Office of the Solicitor] and POB [Office of Budget] with
potential improvements in Service First designation to clarify GSA requirements under
both the Service First and FMR Bulletin 2008-B1 provisions. Quarterly Space Management
Partnership meetings will update status of pending delegated space leasing requests.

        In PAM’s September 2008 meeting with GSA the implications of FMR Bulletin 2008-B1
on the Service First Program were discussed. In December 2008, DOI officials met with the
GSA Administrator regarding the importance of authority to ensure continuity in the Service
First program. PAM staff and GSA continue to work closely to ensure that there is no disruption
to the program. In addition, PAM meets quarterly with the Space Management Partnership
(SMP) where information such as revised GSA space delegation policy is shared and discussed.

         PAM has had discussions with the Solicitor’s Office and Bureau of Land Management
(BLM) to address the issue of FMR Bulletin 2008-B1, but BLM has taken the lead on this effort
since it only affects them and not the Department as a whole.

     After reviewing the documentation for each of the action items we conclude that
Recommendation 1 has been resolved and implemented.

       Recommendation 2: Ensure that leases are classified correctly in FRPP.

       In its October 16, 2008 response to the report, DOI created a corrective action tracking
matrix to implement each recommendation. For Recommendation 2, the corrective action
tracking matrix established the following action items in order to implement this
recommendation.

Action Item A: Provide detailed information on Lease Authority Indicator of FRPP to both
asset and space management personnel.

       This action item is the same as Action Item E for Recommendation 1 listed above.




                                                3
Action Item B: Review, validate and verify delegated leasing data in FRPP submissions of
all bureaus.

        In November and December 2008, PAM staff reviewed the bureau entries into the fiscal
year 2008 FRPP prior to submission to GSA. Discrepancies were identified and discussed with
each bureau. In January and February 2009, PAM again compared FRPP data. Bureau’s were
notified of discrepancies and directed to update and verify the data reported into FRPP. PAM
will continue to review and validate leasing data in the FRPP on a quarterly basis and notify
bureaus of all discrepancies to be corrected.

Action Item C: Provide clarification of requirements for delegated space leasing items in
the FRPP to the Asset Management Team.

        In August 2008, PAM advised DOI bureau asset managers to ensure their real property
staffs consulted with their space management staffs when entering lease information into the
fiscal year 2008 FRPP. Prior to uploading the data into the fiscal year 2008 FRPP, PAM staff
reviewed the bureau data for accuracy and consistency. In October 2008, FRPP reporting was
discussed with the Asset Management Team.

     After reviewing the documentation for each of the action items we conclude that
Recommendation 2 is resolved and implemented.

       Recommendation 3: Provide GSA with all lease expiration dates for delegated
       leases.

       In its October 16, 2008 response to the report, DOI created a corrective action tracking
matrix to implement each recommendation. For Recommendation 3 the corrective action
tracking matrix established the following action items in order to implement this
recommendation.

Action Item A: Poll bureaus for accurate and complete listing of all leases.

       This action item is the same as Action Item A for Recommendation 1 listed above.

Action Item B: Quarterly compile updated listing from the bureaus of all new and ongoing
leasing action and provide summary to GSA Central Office.

        PAM sends a quarterly report to GSA of bureau direct space leases. We obtained a copy
of these reports which includes details for each lease, including location, square feet, expiration
date, and lease authority.

     After reviewing the documentation for each of the action items we conclude that
Recommendation 3 is resolved and implemented.




                                                 4
Conclusion

      We informed PAM officials of the results of this review on September 15, 2010, and they
agreed with the results of our review.

       If you have any questions about this report, please contact me at (916) 978-5653.

cc: Eric Eisenstein, Branch Chief, Internal Control and Audit Follow-up, Office of Financial
     Management (MS 2557-MIB)
    Debra Sonderman, Director Office of Acquisition and Property Management
    Nancy Thomas, Audit Liaison, Department of the Interior
    Alexandra Lampros, Liaison Officer, Office of the Secretary




                                               5
